No. 19-267

 

IN THE

Supreme Court of the United States

Our LaDy OF GUADALUPE SCHOOL, PETITIONER,

v.

AGNES MORRISSEY-BERRU, RESPONDENT,

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE ETHICS AND RELIGIOUS LIBERTY
COMISSION OF THE SOUTHERN BAPTIST CONVEN-
TION, THE CHURCH OF JESUS CHRIST OF LATTER-
DAY SAINTS, THE RIGHT REVEREND DEREK JONES,
THE ALEPH INSTITUTE, THE ASSEMBLIES OF GOD
(USA), AND STEWARDS MINISTRIES,
AS AMICI CURIAE SUPPORTING PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,702 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 30, 2019.

 

Wilson-Epes Printing Co., Inc.
